0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby ceTtify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amici Curiae AARP, AARP Foundation Justice in
Aging, the National Academy of Elder Law Attorneys,
the Disability Rights Education & Defense Fund, the
National Disability Rights Network, the American
Heart Association and the American Lung Association
in Support of Respondents in 20-37 & 20-38, Norris
Cochran, Acting Secretary of Health and Human
Services, et al. v. Charles Gresham, et al.; Arkansas v.
Charles Gresham, et al., were sent via Next Day
Service to the U.S. Supreme Court, Next Day and email service to the following parties listed below, this
25th day of February, 2021:
Nicholas Jacob Bronni
Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas. bronni@arkansasag.gov
Counsel for Petitioner State of Arkansas
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Petitioners Norris Cochran, Acting
Secretary of Health and Human Services, et al.

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
' 1300 I Street, NW, Suite 400E
' Washington, DC 20005

Ian Heath Gershengorn
Jenner & Block
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6869
I Gershengorn@jenner.com
Counsel for Respondents
Charles Gresham, et al.
Laura E. B. Lombardi
New Hampshire Department of Justice
33 Capitol Street
Concord, NH 03301-6397
(603) 271-3650
laura.lombardi@doj .nh. gov
Counsel for Respondent New Hampshire Department
of Health and Human Services
Maame Gyamfi*
*Counsel of Record
William Alvarado Rivera
Kelly Bagby
AARP FOUNDATION
601 E Street, NW
Washington, DC 20049
(202) 434-6291
mgyamfi@aarp.org
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 25, 2021.

H

yil) LU):~

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State or Ohio
My Commission Expires
c:ebn arv 14, ::>(), 3

